<html>
<title> - SEEKING FREEDOM FOR AMERICAN TRAPPED IN BOLIVIAN PRISON</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
        SEEKING FREEDOM FOR AMERICAN TRAPPED IN BOLIVIAN PRISON

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

                           Serial No. 112-172

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
75-388                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, 
ROBERT TURNER, New York                  Florida<greek-l>As of 6/19/
                                         12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Yimy Montano Villagomez, attorney for Jacob Ostreicher.......     6
Mr. Jerjes Justiniano Atala, attorney for Jacob Ostreicher.......    11
Ms. Miriam Ungar, wife of Jacob Ostreicher.......................    25
Ms. Chaya Gitty Weinberger, daughter of Jacob Ostreicher.........    30
Mr. Steve Moore, Special Agent (retired), Federal Bureau of 
  Investigations.................................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Yimy Montano Villagomez: Prepared statement..................     8
Mr. Jerjes Justiniano Atala: Prepared statement..................    13
Ms. Miriam Ungar: Prepared statement.............................    27
Ms. Chaya Gitty Weinberger: Prepared statement...................    32
Mr. Steve Moore, Special Agent (retired): Prepared statement.....    37

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


        SEEKING FREEDOM FOR AMERICAN TRAPPED IN BOLIVIAN PRISON

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:49 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and I want to 
thank you all for joining us as the subcommittee continues to 
shine the spotlight on and to search for a resolution to the 
extreme injustice being perpetrated by the Bolivian Government 
officials against Jacob Ostreicher, an American trapped in the 
infamous Palmasola Prison, charged with crimes for which the 
Bolivian Government has produced no evidence, either of the 
crimes themselves or that Mr. Ostreicher committed either one.
    He is being denied the most fundamental due process and 
human rights both under Bolivian law and international human 
rights standards.
    On June 9, Sheri Rickert, my staff director on the 
subcommittee and I went to Bolivia to meet with Mr. Ostreicher 
and to attend a court hearing for his release on bail which had 
been repeatedly delayed since September of last year.
    The testimony presented at the subcommittee at the June 6 
hearing about this case revealed that repeated due process 
violations were being committed by Bolivian officials.
    On June 11, I had the opportunity to witness some of that 
myself. Two attorneys from the Bolivian Ministry of Government, 
who I understand should not be intervening in the case in the 
first place, aggressively threatened to take legal action 
against the judge if he refused to recuse himself. Although the 
judge rightly rejected the ludicrous reasons for which the 
Ministry of Government attorneys based their threat, they 
accomplished their goal of having the hearing postponed, and 
Mr. Ostreicher returned to prison.
    To underline the absurdity of the Bolivian judicial system, 
Mr. Ostreicher's case was then referred to a court where the 
judge is detained in the same prison as Mr. Ostreicher. It took 
fully 6 weeks for the hearing to be rescheduled. Remember, this 
is a bail hearing in another court that has a judge.
    I've been informed that, unfortunately, the same scenario 
occurred on June 11 at the hearing that took place, and again 
on July 23. The Ministry of Government attorneys injected 
themselves into the hearing and aggressively threatened the 
judge if she failed to recuse herself. The judge rejected out 
of hand the basis asserted for the threat, and again postponed 
the hearing and returned Mr. Ostreicher to jail.
    While in Bolivia I met with Vice Minister of Foreign 
Affairs, Juan Carlos Alurralde, the Minister of Government 
Carlos Romero, and Minister of Justice Cecilia Ayllon Quinteros 
to advocate for Ostreicher's release. Each one of them have 
made commitments with respect to this case but sadly have not 
followed through.
    And in the meantime, Mr. Ostreicher continues to face daily 
threats to his life in the violent, unsanitary, drug infested 
Palmasola Prison.
    He has been on a hunger strike, as we know, since April 15, 
and he was already extremely frail and weak when I saw him over 
a month ago. A private and a Bolivian Government doctor have 
examined Mr. Ostreicher and recommended that he be referred to 
a medical clinic for evaluation. Given everything else that has 
happened in this case, it is highly suspicious that the prison 
officials are unable to find police escorts to take him there.
    Although our own State Department officials are finally 
acknowledging that Ostreicher's due process rights are being 
violated, they continue to seem hesitant and uncertain about 
what action to take on his behalf. The State Department was 
invited to testify at this hearing, but indicated that they 
were not available to do so this week.
    I do look forward to arranging a follow-up hearing at the 
earliest possible date when they are prepared to discuss their 
efforts in this case.
    Since undertaking my own advocacy efforts on behalf of Mr. 
Ostreicher in early June, I have received reports about several 
Americans who are imprisoned overseas and are being denied 
their fundamental due process and human rights.
    Out of a sense of obligation to do all I can to help Mr. 
Ostreicher, but also to assist other U.S. citizens in similar 
situations, I will introducing legislation this Friday that 
will hold accountable those foreign government officials who 
are responsible for the violation of due process and human 
rights of imprisoned Americans.
    The legislation is entitled Justice for Imprisoned 
Americans Overseas Act, or Jacob's Law.
    It is premised on the principle that foreign government 
officials responsible for violations of fundamental due process 
and human rights of imprisoned U.S. citizens as well as their 
immediate family members should not have the privilege of 
traveling to the United States while our citizens are unjustly 
languishing in prisons and they are responsible for them.
    The bill would prohibit the issuance of a visa and deny 
entry to any foreign government official who is violating or 
failing to fulfill a responsibility to uphold the rights of 
imprisoned Americans.
    The legislation would also deny entry to such officials for 
10 years if the American dies from any cause while imprisoned. 
These visa and entry prohibitions would likewise apply to these 
officials' immediate family members.
    Entry into the United States would be denied only when an 
American's fundamental rights are being violated. Americans who 
violate the legitimate laws of a foreign country must accept 
the consequences of their crimes, but the United States cannot 
stand by and simply monitor the cases when our citizens are 
being held hostage contrary to international human rights 
standards.
    I would emphasize that already under current law, 22 U.S. 
Code Section 1731, the President must demand the release of any 
citizen who has been unjustly deprived of his liberty by or 
under the authority of any foreign government, and to undertake 
appropriate means to obtain the release of such citizen. We're 
not talking about just monitoring the release of that person.
    This legislation provides the State Department with a tool 
that it should welcome in order to help it fulfill that 
responsibility.
    We are privileged to have with us today two attorneys who 
are representing Mr. Ostreicher in the Santa Cruz courts. I 
would like to thank them for coming all the way from Bolivia to 
participate in this hearing on Mr. Ostreicher's behalf.
    We will also receive an update about the case from Mr. 
Ostreicher's wife, Ms. Miriam Ungar, and his daughter, a 
constituent of mine from New Jersey, Ms. Chaya Weinberger.
    Finally, I would like to express my appreciate to Mr. 
Steven Moore, a retired FBI Special Agent who has spent 
considerable time and effort investigating Mr. Ostreicher's 
case, and who interrupted his book tour in Washington State 
just to be with us today. Thank you for that sacrifice, and 
thank you for the tremendous work that you have done.
    I'd like to now yield to my friend and colleague, Ms. Bass, 
the ranking member, for any opening comments she might have.
    Ms. Bass. Mr. Chairman, thank you for continuing to focus 
on Mr. Jacob Ostreicher, the U.S. citizen and businessman held 
in custody in Bolivia for over 14 months. And let me just take 
the opportunity to commend you for your aggressive action of 
taking the time out and going directly to Bolivia. And as I 
understand in reports from that there was concerns for your 
physical safety, but you took it upon yourself to do that, 
anyway.
    I regret that no meaningful progress has been made toward 
this release since our last hearing on June 6, as his forced 
detention becomes more troubling each day and each minute that 
he remains incarcerated.
    Mr. Chairman, allow me to again express my deepest concern 
for Mr. Ostreicher and his family who have endured such a great 
deal since his June 2011 detention. Mr. Ostreicher, as has been 
noted, has been held in detention for well over a year without 
due process.
    Hearings on this case have been postponed numerous times 
including the most recent only on July 23. I must ask the 
Bolivian Government why do they continue to stall on this case?
    I am aware that the Bolivian justice system allows for up 
to 18 months before an individual is charged. It's my 
understanding that this is far from the norm, and in many cases 
far exceed this time frame.
    Although the difficulty of assessing justice in Bolivia is 
clearly a problem that extends beyond the case of Mr. 
Ostreicher, I would hope that this case, to be one of these 
that I would hope that the necessary diplomatic and political 
pressures would be applied to resolve this case.
    Let me take the time to urge the U.S. officials to do all 
that is possible to find a solution to what is a crisis that 
divides a family, and robbed a mother, wife, children of a son, 
husband, and father.
    Ms. Ungar, I empathize with the frustration that you, your 
husband, and your family have endured. I say I empathized, I 
can't say that I know exactly how you feel because I don't 
think anybody knows how you feel unless they have been in that 
exact situation. But let me say again that we have not 
forgotten your husband and we, too, are worried about his 
mental and physical health and well being.
    I once again encourage you and all parties involved to keep 
channels of communication open so that every effort to bring 
transparency and progress to this very serious crisis can be 
resolved.
    I hope that you are able to keep the faith and believe that 
your husband will be returned to you, and that you will soon be 
able to put this tragedy behind you.
    Thank you, Mr. Chairman, and I look forward to hearing from 
today's witnesses.
    Mr. Smith. Thank you very much, Ms. Bass. I'd like to now 
turn to Mr. Turner, the gentleman from New York.
    Mr. Turner. Chairman Smith, Ranking Member Bass, thank you 
for calling this hearing today.
    Chairman Smith, let me applaud you for your effort on 
behalf of Jacob Ostreicher. I also want to thank Jacob's wife 
and daughter for coming to Washington again to share their 
thoughts with us.
    A little over a month ago we had a similar hearing and it 
was entitled, ``The State Department's Inadequate Response to 
Human Rights Concerns in Bolivia.'' Frankly, this hearing could 
now be entitled, ``The State Department's Inadequate Response 
to Human Rights Concerns in Bolivia Part II.''
    And perhaps even that is not completely accurate because 
unlike movie sequels, nothing has changed.
    Jacob has still not been formally charged, he has been 
denied a hearing, he continues to live in squalor, and in 
constant fear for his life, and his health continues to 
deteriorate.
    The State Department's response is still inadequate.
    They have been invited but they have declined to testify 
claiming that it is better to work behind the scenes. This 
strategy has been employed for over a year, and I ask what are 
the results. So, if the State Department were here I would have 
one question; what are you doing to help him? He has been 
detained without a hearing, no trial, no jury, no verdict, no 
due process, Mr. Chairman. I believe Jacob's family deserves to 
know what is going on, and I hope the State Department will 
answer that question.
    Thank you. I yield back.
    Mr. Smith. Mr. Turner, thank you very much. I now recognize 
the gentlelady from New York, Ann Marie Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    First of all, let me begin by saying thank you to all of 
our witnesses and to Mr. Ostreicher's family for being here 
today. I know how difficult this is, but we need you to help us 
raise awareness about the issue and all of the challenges that 
he faces, so thank you very much for your courage to be here 
and to help us do our job even better.
    I just want to thank the chairman. We are very fortunate to 
have a chairman such as Mr. Smith who has the courage to 
continue to focus on these human rights violations throughout 
the world, and who has been steadfast. And as was mentioned by 
the ranking member, by his trip to Bolivia, and again the 
courage it takes to call attention and to remain vigilant on 
behalf of not only Mr. Ostreicher but also his family.
    I look forward to hearing your testimony today. It's going 
to take all of Congress and this administration, it's going to 
take a concerted effort for us to get him the liberty and the 
freedom that he needs, and we want to pledge that to you. We 
will remain steadfast, and we will continue to work on his 
behalf as well as your's.
    I thank you very much, and I yield back.
    Mr. Smith. Thank you very much, Ms. Buerkle.
    I'd like to now welcome to the witness table our very 
distinguished witnesses beginning first with Yimy Montano 
Villagomez who obtained his legal license at the Universidad 
and a Master's degree as well, both in Santa Cruz in Bolivia. 
He is admitted to the Bolivian bar. He has been the principal 
at the law firm of Montano & Associates for the past 2 years, 
and has represented Mr. Ostreicher since January 2012.
    We will then hear from Jerjes Justiniano who attended the 
school of Universidad, the Adventist University of Chile, and 
obtained his license in law as well in Santa Cruz. He has 
completed a Master's program in criminal law and is awaiting to 
present his thesis. He is also admitted to the Bolivian bar and 
has been a partner in the firm that he heads since 2000. Mr. 
Justiniano has represented Mr. Ostreicher in this case since 
November and December 2011, and again since March 2012.
    We'll then hear from Ms. Miriam Ungar, who is the wife of 
Mr. Jacob Ostreicher. She has visited Mr. Ostreicher in Bolivia 
numerous times both prior to and after his arrest. She has gone 
from having the normal life of a resident of Brooklyn, New York 
to being the lead advocate for her husband imprisoned in a 
foreign country with a different language, different culture, 
and an incomprehensible disregard for fundamental human rights 
and legal due process. She has striven to help her husband 
maintain his physical well being and mental sanity in 
horrendous prison conditions.
    Ms. Ungar, once again I commend you and thank you for your 
courage and your fidelity to your husband. When Sheri and I met 
with him, he spoke about you, Chaya, and rest of the family 
almost non-stop, about how much he just longs to be with you 
both of you. And it was really extraordinary how much he misses 
you and cherishes the family, and both of you.
    We'll then hear from Ms. Chaya Weinberger, the daughter of 
Mr. Ostreicher. Ms. Weinberger is married and the mother of 
five small children. She is a resident of Lakewood, New Jersey 
in the district which I have the honor of representing, and 
she's also visited her father in the notorious Palmasola Prison 
in Bolivia, and has attended several of his hearings. We are 
deeply appreciative of her willingness, and again to the both 
of you, thank you so much.
    We then will hear from Mr. Steven Moore who served as FBI 
Special Agent and Supervisory Special Agent in the FBI for 25 
years retiring in 2008. Mr. Moore led the investigations of 
many high profile crimes in Los Angeles, including the first 
ever conviction for an anthrax threat and the Buford Furrow 
shooting murder spree at the Los Angeles Jewish Community 
Center.
    He spent several years on SWAT, and was a case agent for 
Los Angeles 9/11 investigation, and later chosen to supervise 
all al-Qaeda investigations for the Los Angeles FBI.
    In 2003, Mr. Moore stood up the FBI squad in charge of 
responding to acts of terrorism against the U.S. in Asia and 
Pakistan, including the bombings of the U.S. consulate in 
Karachi, and the JW Marriott Hotel in Jakarta. He established 
liaison and worked closely with the CIA and the U.S. Department 
of State in several countries, conducting investigations at at 
least six U.S. Embassies. Mr. Moore also served a term as 
assistant legal attache at the U.S. Embassy in Nassau, Bahamas 
during the summer of 2004.
    In his retirement, Mr. Moore has written a book entitled, 
``Special Agent Man: My Life in the FBI as a Terrorist Hunter, 
Helicopter Pilot, and Certified Sniper,'' which was just 
recently released. He also has voluntarily undertaken to use 
his enormous skills and experience that he acquired as an FBI 
Special Agent to help exonerate Americans wrongly incarcerated 
abroad, including Amanda Knox who was convicted in 2009 in 
Italy of murdering her roommate. Of course, because of his work 
largely, the evidence was shown to be bogus and she is now 
free.
    He went to Bolivia in early April 2012 to visit Mr. 
Ostreicher and to investigate his case, and we welcome him 
back, as well.
    Mr. Montano, if you would proceed with your testimony.

 STATEMENT OF MR. YIMY MONTANO VILLAGOMEZ, ATTORNEY FOR JACOB 
                           OSTREICHER

    [The following testimony was delivered through an 
interpreter.]
    Mr. Montano Villagomez. I thank this committee for the 
opportunity. I come here to transmit to you very important news 
which is that a citizen of yours, of this country, is dying in 
a Bolivian prison. I know his case entirely, and I have 
absolutely no doubt regarding Mr. Ostreicher's innocence.
    Bolivia is going through a very difficult time particularly 
in administering justice. There is still a complete 
concentration of power in the central government and this 
concentration of power today has turned completely against Mr. 
Ostreicher subjecting him to a trial, a trial which has--a 
prosecution which has robbed him of his freedom. It is 
attacking his life, his health.
    In this prosecution there has been not even the least 
respect for the laws and constitutional rights which as a 
citizen he should be allowed to have through the Bolivian legal 
system.
    This illegal and cruel prosecution of Mr. Ostreicher has 
been going on for the last 14 months. There is an innocent man 
who is in horrific conditions. His health is suffering, and for 
the last 20 hearings he has not been allowed to recover his 
freedom. He's not even been allowed the assistance of a doctor 
in this situation. And this comes about as a result of bad use 
and abuse of power which has fallen upon Mr. Ostreicher.
    If his rights to life and health have not been respected, 
how is it possible that he would be given due process according 
to the existing laws? This is reflected in the fact that there 
are continuing efforts by the Ministry of Government and the 
officials working for that Ministry who will not allow a bail 
hearing to be heard to see whether he would be able to regain 
his freedom.
    All of the rights, whether they be in international 
treaties, or through Bolivian laws to which he should be 
entitled to have been left on paper. We can't imagine there 
being due process when there's no independence of the different 
branches.
    The prosecutor's office from Bolivia and the judges act at 
the behest of the government, and when they refuse to do so 
they are removed from office. His right to freedom has been 
continually compromised as have his life, his health, his 
belongings, and his right to be with his family.
    Although he is innocent, he continues to be detained while 
people who commit crimes, even crimes against him continue to 
be free.
    I don't know what to tell you to ask exactly of your 
government. I would only plead you and encourage you to act in 
the most appropriate and timely fashion possible. If not, this 
story may not have a happy ending. His life is gravely 
compromised. He's quite weakened, and his family needs him back 
so that he can be with them once again.
    Thank you, Mr. Chair, and to the members of the 
subcommittee for this opportunity to tell my truth.
    [The prepared statement of Mr. Montano follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Montano, thank you very much for your 
testimony and for your courage, both of the attorneys, to be 
here. You know, Ms. Bass and I were just talking. It shows 
tremendous courage and bravery for both of you to come to the 
United States and to be here knowing the impunity, especially 
the prosecutory impunity that currently reigns in Bolivia, and 
we're seeing it with Jacob's case, so thank you for your 
testimony.
    Mr. Justiniano.

 STATEMENT OF MR. JERJES JUSTINIANO ATALA, ATTORNEY FOR JACOB 
                           OSTREICHER

    [The following testimony was delivered through an 
interpreter.]
    Mr. Justiniano. Good afternoon, Mr. Chair, and to the 
members of the subcommittee.
    I first need to tell you that in my professional career I 
do not take drug trafficking cases, so when Mr. Ostreicher 
asked me to take a look at his case and after I found no 
evidence to the effect that he was at all implicated or 
implicated in drug trafficking, it was only then that I 
accepted his case.
    I also have to say that unfortunately I am not particularly 
proud of the Bolivian judicial system. The levels of 
corruption, political and economic machinations, the lack of 
independence for the judges makes this system extremely weak. 
And I would say that just because these political 
characteristics, these characteristics in general have had a 
great impact on Mr. Ostreicher's case.
    This testimony is difficult for me for two reasons. This is 
because of the political--because through the process the 
Bolivian Government and the Ministry of Government has directly 
interfered in the case. And it becomes difficult for me 
personally, as well as for political reasons because of 
personal ties that I have. My father has been named Ambassador 
of Bolivia in Brazil, so I have personal ties to the 
government.
    However, it's also difficult for me because it's hard to 
explain the situation of an American citizen in a completely 
different legal system. In spite of that, human rights are 
human rights for anybody and everybody. And in this particular 
case it's the human rights of Mr. Jacob Ostreicher that have 
been violated. And, particularly, this is the case with the 
procedural aspects of this, so I think it might be hard for you 
to understand this fully, but in this particular case both the 
prosecutor and a judge have indicated that it is impossible to 
say that he has committed the crime because he has not proven 
the legality of his financing.
    The Bolivian authorities have said that he has not denied 
the ties with these other people and the illegality of the 
financing and, therefore, he is guilty.
    While they may be different, the Bolivian and the American 
legal systems, there is, in fact, one guiding principle in both 
of them which is the presumption of innocence, which means that 
the accuser must, in fact, prove the guilt of the party, and 
this has not happened at all in the case of Mr. Jacob 
Ostreicher.
    As soon as there was a quest to end the detention of Mr. 
Ostreicher and a judge reviewed the evidence provided by the 
defense, he decided that, in fact, there was no evidence to 
indicate that there was any illegal source of the funding, and 
he was granted his freedom. Curiously enough, 6 days later that 
same judge without word from or to anybody changed his opinion 
and ordered his detention once again.
    As Mr. Montano stated, there have been over 20 hearings 
that have not been held because of interference by the Bolivian 
Ministry of Government on the Bolivian justice system. I cannot 
give you the reasons behind this interference, but I can 
definitely say that there is interference by the Ministry of 
Government on Mr. Jacob Ostreicher's case.
    I can identify public officials like Fernando Rivera and 
Dennis Rodas Limachi who have directly interfered in the 
government, and interfered in this procedure. And you, Mr. 
Chairman, have seen it yourself.
    I personally believe that it is not only Jacob Ostreicher 
who is at risk because of his health, and because of his 
illegal prosecution, but the Bolivian justice system is also at 
risk.
    The democracy has certain pillars and separation of powers, 
and as soon as the executive branch interferes with the 
judicial branch by threatening a judge, democracy itself is 
threatened.
    And, finally, I would like to state that I cannot 
understand why a U.S. citizen who decided to invest in Bolivia, 
and who decided to create jobs in Bolivia is being treated the 
way he is treated. Jacob Ostreicher's companies would pay 
higher salaries than what Bolivia pays its police officers. 
Still, he is being held illegally with no reason, and through 
direct interference on behalf of the government. That is why I 
consider this not only illegal but truly unjust.
    Thank you, Mr. Chairman, for your time.
    [The prepared statement of Mr. Justiniano follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Justiniano, thank you very much again to 
both of you. Again, I can't underscore for the American 
audience how courageous it is for you to come here and testify. 
But having been in the courtroom and watching what I truly 
thought was a stellar representation on behalf of Jacob, 
despite the intimidation tactics that were clearly on display, 
and despite the judge who went from being confident in the 
morning to being a nervous wreck because he was so fearful 
about the sword of Damocles that was hanging over his head. And 
you two gentlemen were in the court standing up on behalf of 
Jacob, and have come here now to Washington.
    I would hope the people of Bolivia would realize that you 
have given a great deal of encouragement to all of us, that 
Bolivian democracy in the future, providing people of your 
stature are robustly involved with the democracy, has a great 
future.
    Very often, it is the defense attorneys and their stand for 
human rights and human dignity that determines which course a 
country takes, so I want to say how this subcommittee applauds 
you for the stellar defense you're providing for Jacob, but 
also for your courage.
    Ms. Ungar.

    STATEMENT OF MS. MIRIAM UNGAR, WIFE OF JACOB OSTREICHER

    Ms. Ungar. Thank you, Mr. Chairman and members of the 
subcommittee for taking the time to hear my testimony today. My 
name is Miriam Ungar and I'm the wife of Jacob Ostreicher, a 
53-year-old American citizen currently detained in Santa Cruz, 
Bolivia. As I've already testified on June 6 before this 
subcommittee, I will only give a short recap of my husband's 
story.
    On December 26, 2010, Jacob went to Santa Cruz, Bolivia to 
take over management of a rice business after investors 
suspected that the local manager they hired was embezzling 
money from the company. When Jacob arrived in Bolivia, the 
local manager was nowhere to be found, and Jacob immediately 
hired lawyers to start filing criminal and civil charges 
against her.
    Before she fled, the local manager purchased a parcel of 
land from a man wanted in Brazil in the 1990s. When Bolivian 
authorities realized that the company was operating on his 
land, they raided Jacob's office and deposed him. Even though 
Jacob did not purchase the land himself, Jacob cooperated fully 
with the authorities and notified the U.S. Embassy of the 
deposition.
    After enduring two additional depositions, Jacob was 
arrested on June 3, 2011. At the arraignment, the prosecutors 
alleged criminal organization and money laundering. It is my 
understanding that no evidence was reviewed by the judge.
    Following three postponements, on September 23, 2011, a 
judge ordered Jacob's release on bail based on evidence 
submitted, only to reverse his decision 6 days later. Of the 22 
hearings that have been scheduled, 19 hearings were postponed. 
Most of the stated excuses for these postponements were 
illegal. During Jacob's last two scheduled hearings, the 
Bolivian Ministry of Government resorted to a new tactic to 
postpone Jacob's hearings.
    Mr. Chairman, as you mentioned before, at the June 11 
hearing the legal advisor to the Ministry of Government 
demanded that the third judge on Jacob's case recuse himself. 
By law, the higher court that he referred it to must make a 
decision within 48 hours. They failed to do that. They did not 
follow due process.
    Forty-two days later on July 23, the 22nd scheduled hearing 
in Jacob's case, Jacob was brought into the courtroom only to 
hear a repeat of what occurred at the June 11 hearing. The 
fourth judge on Jacob's case was ordered to recuse herself by 
the Ministry of Government's legal advisor. She refused. The 
legal advisor threatened to file charges against her. The judge 
refused, but referred it to a higher court anyway. By law, the 
higher court must make a decision within 48 hours. It is now 
August 1 and we are still waiting.
    Today marks 426 days and my husband, Jacob Ostreicher, has 
been incarcerated in Palmasola Prison without being formally 
charged with a crime. Palmasola is a notorious prison ruled by 
the most hardened criminals. Every day that Jacob remains in 
that prison is another day that his life remains in constant 
danger.
    I am beyond frustrated by the Bolivian Government's 
consistent interference in my husband's case resulting in a 
denial of his due process and basic human rights. Although I'm 
aware of the shortcomings of the Bolivian justice system, I 
believe that what my husband has endured is more than the 
average prisoner in Bolivia. Evidenced by the two most recent 
hearings in his case, the Ministry of Government is playing an 
active role in preventing Jacob from having his case heard.
    I would like to address a report I received from the U.S. 
Embassy on the meeting on July 5, 2012 with Roberto Desogus 
from the United Nations High Commissioner of Human Rights' 
office in Bolivia. I received a report on July 12. Following 
the meeting, the U.S. Embassy reported that it is the opinion 
of the UNHCHR Office in Bolivia that Jacob is not being 
persecuted or targeted by the government, but rather he is yet 
another victim of a brutally slow, inefficient, underfunded and 
corrupt judicial system.
    According to the UNHCHR, the procedural delays, the 
rotation of prosecutors, the recusal of judges, and the 
apparent lack of hard evidence in Jacob's case are all factors 
which are common in the majority of cases in the Bolivian 
judicial system.
    As our Bolivian attorneys attested, the totality of what 
Jacob has experienced is not common. Moreover, even if it was, 
the UNHCHR, an international body charged with upholding and 
advocating for international standards of human rights should 
not sit idly by and accept it. Nor, in my opinion, should the 
U.S. Government. Jacob is a U.S. citizen and the U.S. 
Government should do everything in its power to insure respect 
for his rights and due process regardless of how unjust, slow, 
and corrupt the justice system in Bolivia is.
    I am utterly distraught and frustrated beyond words that it 
has been 15 months since the crisis began and we are still 
right where we are in June 2011. We have not moved forward in 
this case. Fifteen months in prison just seems to flow so 
easily from out mouths, but 15 months is a milestone in the 
life of a human being.
    In the 15 months that Jacob has been kept hostage in a 
foreign country, his grandchildren have learned to walk, to 
talk, and some even started school. These are lost milestones 
that can never be recovered.
    In summary, Mr. Chairman, Jacob's rights are continuously 
being violated every second that he remains in prison. The last 
two hearings in his case have provided evidence that he is 
being targeted by the Bolivian Government and, thus, I hope 
that the United States Government will continue to advocate for 
and protect its citizen.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you and this subcommittee today.
    [The prepared statement of Ms. Ungar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you again, Ms. Ungar, for, as I said at 
the outset, your steadfast advocacy, so effective and 
aggressive, all involvement completely motivated by the love 
for your husband. Thank you for, again, your advocacy.
    Ms. Weinberger.

  STATEMENT OF MS. CHAYA GITTY WEINBERGER, DAUGHTER OF JACOB 
                           OSTREICHER

    Ms. Weinberger. Thank you, Mr. Chairman and other members 
of the subcommittee for bringing my father's plight to the 
forefront, and for scheduling this hearing. I will never forget 
all that you have done for my family during this time of crisis 
and will be forever grateful.
    The image of my dear innocent father accompanies me as I 
speak before you this afternoon. It is an image that causes me 
to shutter when I think of it. His face is swollen with hunger. 
His skin is pale and lifeless, but his eyes are alive. They are 
very much alive and filled with longing pleading with me to try 
with all my waning energy to recuse him before it's, God 
forbid, too late. He still hopes after all these months for 
freedom and liberty back home in the land that he loves.
    I cannot let him down, and so although it is very hard for 
me to be in the limelight once again, I appeal to you, the 
government on my homeland, my father's situation has not 
changed in the slightest since his detention 426 days ago. It 
has been a long painful year filled with let downs and 
postponed hearings, and we have just had enough.
    We are enraged at the injustices, lies and scandalous acts 
that are being committed against my father. We have tried going 
patiently through the Bolivian legal system and bearing with 
their way of governing but they have shown us that their 
justice system is flawed beyond repair.
    Rather than pursue justice for victims and the accused 
alike, the Bolivian justice system appears to be a vehicle for 
political maneuvering. I have been appalled by what I have 
witnessed firsthand while in attendance at one of my father's 
hearings in Bolivia.
    At my father's very first scheduled hearing the judge was 
texting on his Blackberry and even answered a phone call while 
the defense lawyers were arguing their case. Although I was not 
in attendance at my father's most recent hearings, we have 
learned that the Ministry of Government requested that the 
judges should recuse themselves, a political maneuver to 
postpone my father's hearing for as long as possible done in 
the course of a hearing for everyone to witness.
    How can my father possibly be receiving fair treatment in a 
country with a government that does not even bother to hide its 
corruption? How much longer must he wait and wonder when his 
salvation will come, for it will not come through the Bolivian 
justice system. Time has shown us that. It is clear to us that 
his only chance for liberation is if the American Government 
will jump into action and demand his freedom from his captors 
before it's too late. He deserves to be free.
    It is my sincere belief that the only reason for his being 
kept hostage is because he stood for the American ideals of 
free enterprise and capitalism, and the Bolivian Government saw 
him as a threat to its way of life and control of the rice 
markets.
    The abuse and torture my innocent father is going through 
both mentally and physically would stun the mind of any sane 
person. I have seen it with my own eyes. It was so ghastly, I 
felt as I were in a horror movie.
    Sewerage runs through the streets of the huge prison. There 
are no guards to protect the inmates, and the only security 
comes from other inmates. Fistfights erupt between the 
prisoners often. It is a common occurrence for a corpse to be 
carried out. It is a scene from a nightmare and my dear father 
is living this nightmare daily. Every day that he is being kept 
there his basic human rights are being violated.
    Our Web site is being visited daily by hundreds of people 
who are praying and care very much about my father. More than 
35,000 people have signed a petition to the White House in 
support of his release from detention. These people see how the 
Bolivian Government has perverted justice and they are sickened 
by it. They want to see their country act on behalf of their 
fellow citizen.
    My father is literally clinging onto his sanity. He tells 
me that the one thought that gives him the strength to endure 
is the hope that the American Government will do everything in 
its power to secure his release. He often stares at the 
American flag painted on the wall by his cell and dreams about 
the day when he will proudly sing the song of liberty and 
salute to his homeland.
    Mr. Chairman and members of the subcommittee, let's show my 
father that his dreams will become a reality. Show him and the 
world that America is what it professes to be, a country that 
stands for liberty, a land that will fight for her citizens, a 
country that will not allow its innocent citizen be kept 
hostage in a foreign country, and won't let anyone stand in her 
quest for truth. Prove that American citizenship is a commodity 
worth having, and that the Star-Spangled Banner will triumph 
once again over those who mock all she stands for; that she 
will not stay in my father's cell in the Palmasola Prison, but 
will rather be carried back with my father to the greatest 
nation on earth. Let her be back where she belongs together 
with my father, dual witnesses to the supremacy of their 
country, the United States of America. Please do everything in 
your power to bring my father back to his homeland, back to his 
children and grandchildren before it's too late. And for all 
the time and effort that you're investing in this cause, may 
God bless you all, may God bless my father, and may God bless 
the United States of America. Thank you.
    [The prepared statement of Ms. Weinberger follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Weinberger.
    Mr. Moore.

STATEMENT OF MR. STEVE MOORE, SPECIAL AGENT (RETIRED), FEDERAL 
                    BUREAU OF INVESTIGATIONS

    Mr. Moore. Chairman Smith, Ranking Member Bass, and 
distinguished members of the committee, I want to thank you 
again for your diligence in keeping this before the American 
public. And I want to thank Mr. Justiniano and Mr. Montano. 
They are brave men for doing this. We know what could happen in 
Bolivia.
    When I was in the FBI, if I did an undercover SWAT 
operation I slept at home. Nobody knew where I lived. These 
people go back to a country after appearing here and people 
know where they live.
    I want to thank you again. The damage that has been done to 
my confidence in the government by the inaction of the State 
Department has been in many ways rebuilt by the actions of this 
subcommittee, and Mr. Smith in particular.
    The legislation that I've just found out about and done as 
much research as I can here, it addresses a vast governmental 
blind spot that is costing people part of lives and entire 
lives. This is essential legislation.
    In 25 years of working for the government, I have never 
seen such egregious inaction by any department of the 
government as I'm seeing by the State Department. And I say 
this as somebody who worked in an Embassy. I don't think it's 
endemic to necessarily everybody in State. There are brave 
people in State, but there are cowards in State, too.
    I will do, Mr. Smith, whatever I can do to assist in 
support of this legislation. I am bothered by the State 
Department inferring that they're doing something behind the 
scenes. Notice that they never said they were doing anything 
behind the scenes, they're saying we prefer to do things behind 
the scenes.
    I would think that if the State Department was doing 
anything, even behind the scenes, they might appear in one of 
these hearings and they might give some kind of wink and a nod 
to a member of the subcommittee, but they're not.
    We used to say in the FBI that sometimes what you didn't 
see was better evidence than what you saw. What I don't see is 
the best evidence I see of exactly what the State Department is 
not doing.
    When I testified before, I then followed up with an 
investigative report which was provided to the U.N. High 
Commissioner on Human Rights by Mr. Smith's office. In that, I 
noted more than nine violations, egregious, obvious violations 
that are not subjective, they're objective violations in the 
custody alone of Mr. Ostreicher.
    For instance, according to the First U.N. Congress in 1955 
which Bolivia and the United States are participants, untried 
prisoners shall be kept separate from convicted prisoners. Mr. 
Ostreicher is kept with serial rapists, mass murderers. The 
person who claims to protect him has only killed one or two 
people, so I'm sure he feels much more reassured by that. 
That's a violation of international treaty.
    ``Where sleeping accommodation is in an individual cell or 
rooms, each prisoner shall occupy by night a cell or room by 
himself.'' Mr. Ostreicher and many of the prisoners slept 
outside, and many of the prisoners still sleep outside on 
garbage heaps because you have to pay to have a cell.
    ``There should be regular supervision by night in keeping 
with the nature of the institution.'' There is not. The only 
monitoring I saw in that prison at night was when the guards 
fired over our heads to intimidate us.
    ``All accommodation provided for the use of prisoners and, 
in particular, all sleeping accommodations shall meet all 
minimum requirements for health due to being climatic 
conditions, particularly due to cubic content of air, minimum 
floor space, lighting, heating and ventilation.'' There's no 
such thing as that. Raw sewerage runs through the street. This 
is a squalid cesspool. Mosquitoes are everywhere. There is no 
hygiene. Their garbage dumps are literally in living spaces.
    ``No prisoner shall be employed, in the service of the 
institution, in any disciplinary capacity.'' We know that 
lifers, murders, serial rapists are the internal security for 
that prison. That's not a nuanced phrase about how things are 
run in there, that is the de facto government-approved manner 
of maintaining internal discipline.
    ``All parts of the institution regularly used by prisoners 
shall be maintained and kept scrupulously clean at all times.'' 
I refer you to my comments on raw sewage and open garbage 
heaps.
    ``Corporal punishment, punishment by placing in a dark cell 
and all cruel, inhuman or degrading punishments shall be 
completely prohibited as punishments for disciplinary 
offenses.'' Coincidentally, every single one of those practices 
are undertaken at Palmasola.
    ``The medical officer shall daily visit prisoners 
undergoing such punishment . . . .'' There is no doctor at 
Palmasola. They have trouble getting a doctor to come into the 
prison because it's so dangerous.
    This information was provided to the United Nations High 
Commissioner on Human Rights. It had to be provided by the 
State Department, and when the State Department met with the 
U.N. High Commissioner on Human Rights, they filed a report 
because they're watching carefully what's going on, and said 
that basically the legal procedure in Bolivia is corrupt, it's 
brutal. These are quotes, these are not my adaptations of this. 
It is ``corrupt, brutal, slow, inefficient, under-funded,'' and 
that's okay?
    What they said was this is their procedure; therefore, if 
it's corrupt, if it's brutally slow, inefficient, and under-
funded, because that's the way it is, that's okay. What if the 
Bolivians were to enact tomorrow stoning for accused prisoners? 
That would be under the Bolivian law. Would the State 
Department go ahead with that?
    The fact that it is a part or claimed to be a part of law 
does not make it legitimate. And State Department hiding behind 
corruption in a country like Bolivia is--it's the worst type of 
duplicity.
    On the State Department's Web site today is a statement 
that says, ``We work to insure that Americans are afforded due 
process under local laws.'' I don't believe that to be true. On 
the State Department Web site today it also says, ``The State 
Department is committed to insuring fair and humane treatment 
for American citizens imprisoned overseas.'' I have just 
mentioned nine violations of international law that I witnessed 
and photographed while I was in Bolivia. If the State 
Department is committed to insuring fair and humane treatment 
for American citizens imprisoned overseas, what standards do 
they use, and how are they going to enforce it?
    When the report came back to Ms. Ungar on their meeting 
with the U.N. High Commissioner on Human Rights, not one 
mention was made of the violations of Jacob's captivity. It was 
ignored. They discussed the legal procedure, but more than half 
the report dealt with the illegal and inhumane treatment he was 
receiving in prison; yet, it wasn't addressed.
    We don't have dumb people in State. They knew that more 
than half this report had to do with illegal procedures in his 
captivity; yet, they didn't even address it. Committee members, 
they didn't forget. These people are not fools. It did not 
serve their purposes to discuss it.
    This is embarrassing to me as somebody who served his 
country and who loves his country, who has friends in State. 
There are people I admire in State, but if we are depending 
upon other governments to tell us what's okay for our citizens, 
the State Department is nothing more than a rubber stamp for 
despotic governments.
    There needs to be, as this legislation proposes, a way to 
hold State, all of State, not just the good people but the 
people who are career oriented, there needs to be a means to 
hold them to their responsibilities to the American people.
    My dad used to tell me that fences aren't necessary until 
the cow leans up against it. I think it is important that the 
good people of State are not betrayed by the inaction of the 
other people in State who should be held in line by this type 
of legislation, or there should be an organization within State 
dedicated to the investigation of Americans who are held 
overseas.
    I agree 100 percent with Representative Smith, I put 
Americans in jail for 25 years. If an American earns his way 
into a prison overseas, fine. That's fine. I am not so 
xenophobic as to say that all Americans in prison overseas 
should be released. They shouldn't, but they should at least be 
held to some type of decent treatment and the legal process 
should be valid, because some of those people are really 
innocent.
    I've heard recently that 70 percent of Bolivian prison 
inmates, not jail inmates, prison inmates have not received a 
trial. Is that okay with State?
    If Jacob Ostreicher dies in Palmasola Prison, both the 
Bolivian Government and the United States Department of State 
will have the same blood on their hands.
    And, again, I want to thank the attorneys from Bolivia 
because they show us that our struggle here is not against a 
people, it's not against a country, it's not America gets its 
way, it is simply that we're fighting corrupt governments and 
trying to help the good people of those governments reclaim the 
name that their countries deserve. Thank you.
    [The prepared statement of Mr. Moore follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Moore, thank you so very much. Especially 
given your background, I think you bring enormous gravitas to 
Jacob's innocence, the denial of due process rights which has 
been pervasive and systemic. And, again, I thank you for taking 
time out of your work to fly here, to be here to advocate and 
to provide insights on behalf of Jacob Ostreicher.
    You know, it does strike me, and you made a very strong 
point, your final point, about the blood being on the hands of 
those both in the Government of Bolivia and those at State who 
have been asleep at the switch, or indifferent, or whatever it 
might. And I would have to say, you know, there were people, 
especially the people in the Consular Affairs that were very 
robust in their concerns about Jacob, and I mean deeply 
concerned about him. And even people within the Embassy who had 
knowledge, and they seemed to--after Miriam Ungar's testimony 
and your's, and Ms. Weinberger at the previous hearing--seemed 
to have gotten more up to speed on the policy side of State, 
but it doesn't seem to go any further. And I think that's where 
the huge tragedy is, because I have found in 32 years as a 
Member of Congress that despotic governments look at how high 
up the chain of command are the concerns being expressed.
    We are the legislative branch, we do write the laws, and we 
do oversight. And the fact that State is not here is 
disconcerting. Maybe they had a good reason, but I would have 
loved to have had them here. We will re-invite them. This 
invitation is an open one to them. But where is, with all due 
respect, President Obama? Where is Secretary of State Hillary 
Clinton when it comes to Jacob Ostreicher? Have they contacted 
Evo Morales, picked up the phone and said, ``Mr. President, you 
need to personally look into this.''
    I was amazed when I met with Mr. Romero, the Minister of 
Government, when he said, and counsel might want to speak to 
this, that it was Jacob and his lawyers who sought delays for 
bail hearings. And I said, ``Time out, Mr. Minister. First of 
all, it defies the straight face test,'' as we say, ``and 
defies all logic to suggest that a man would want to stay in 
prison and would delay a bail hearing.'' This wasn't about the 
substance of the non-case, because there is no evidence and 
there is no charges, it's about bail.
    And I said, you know, ``When you say things like that, it 
strains credulity about where are you getting your 
information.'' So, you might want to speak to that in a moment.
    You did say, Mr. Moore, that there's egregious inaction on 
the part of the government. And, again, where is the President? 
As I said in my opening comments, it is in law, U.S. Code 22 
Section 1732 that ``the President must demand the release of 
any citizen who has been unjustly deprived of his liberty by or 
under the authority of any foreign government, and to undertake 
appropriate means to obtain the release of such citizen.''
    Has it gotten to the point? And, again, I wanted State to 
be here so we could ask that question. You know, it wasn't 
until this subcommittee, I think, began to raise the questions 
that it even went up to an Assistant Secretary level, and that 
was when we did the letter, my colleagues and I, because a OAS 
meeting was being held, and we asked that it be raised by that 
official who was on her way there. And then that conversation 
we're told was simply this, ``Raise Jacob's case.'' The person 
on the Bolivian side said, ``That's not my jurisdiction, but 
I'll pass on your concerns.''
    We need to take it to a much higher level. You might want 
to speak to that, Mr. Moore. I do think if the President were 
to get on the phone, he is meeting with people--he doesn't even 
have to meet with them. Just get on the phone and call Evo 
Morales and say, ``Jacob must be free.'' Because if he, as you 
said in the beginning about the--he is a dying man. I saw it 
myself. His health has deteriorated. From a purely humanitarian 
point of view, why wouldn't the Bolivian Government want to--
from a purely humanitarian point of view--put him on a plane 
and send him back to his family?
    So, if you want to speak to any of those issues, the two 
counsel, about the delays were sought by Jacob for his bail. He 
didn't want to get out of jail, he wanted to stay in jail. It's 
ludicrous.
    Mr. Justiniano. Yes, Mr. Chair. As you were saying, it 
defies belief and is contradictory that a person who is seeking 
their freedom would, in fact, request a continuance or ask for 
a suspension of the hearings. And there have been more than 20 
hearings that have been suspended.
    It is the case in many of the cases that go before the 
Bolivian justice system that defendants try to slow down the 
process; however, that is not the case of Jacob Ostreicher.
    We, the attorneys, can state that, in fact, again and again 
when a case has been continued we protest that and ask for the 
case to be heard. So, we can state that when they say that it 
is we, his attorneys and Mr. Jacob Ostreicher, who have been 
requesting the continuances, that is completely false.
    Mr. Montano. Mr. Chairman, this is yet another one of the 
lies that the government will use to cover its crime. It's 
another lie which only a person who is, in fact, trying to 
cover their own crimes would use when we're talking about a 
person who has been detained illegally, who is innocent, for 
the last 15 months. They will use that and a million other 
excuses in order to cover their own crimes.
    Mr. Smith. Ann Marie Buerkle, I know you have to leave for 
another appointment.
    Ms. Buerkle. Thank you, Mr. Chairman.
    I guess--first of all, again thank you all for being here, 
and for your courage, and for your willingness to sit here and 
tell us what is going on.
    What is the possible motivation of the government to do 
this to an American? What--if you know, other than the 
corrupt--you're saying there's corruption, but what is the 
motivation?
    Mr. Justiniano. We are unable to say exactly why the 
Ministry of Government is interfering in this particular case. 
But what we can say for sure is that it is interfering.
    Just to give you a fact, the Wall Street Journal today 
reported that Attorney Fernando Rivera is a prosecutor in the 
case. He is not a prosecutor, he works for the government. And 
he is directly interfering in the process, and we don't know 
why. There is no concrete evidence as to why. What we do know 
for sure is that he is interfering.
    Ms. Buerkle. Other than the obvious that we talked about 
and that the chairman so eloquently talked about the President 
and the State Department, what else can we do to--maybe, Mr. 
Moore, you can speak to this, or any of the panelists. What 
else can we do in this body?
    Mr. Moore. I think this legislation is a fabulous start. 
All the pieces really are in place right now. There are 
international laws that say you can't treat Jacob the way he is 
being treated. There are Bolivian laws that say that you can't 
treat him the way he's being treated. There are Federal laws 
that say that the State Department cannot ignore this, nor can 
the President ignore this. The pieces are all there. Everybody 
is turning their heads. Everybody is ignoring it.
    Legislation such as Mr. Smith is proposing is the kind of 
thing that would take it out of the discretionary area. It is 
like anything else that people don't want to do, sometimes you 
have to have a stick that makes those who don't want to comply, 
comply. And I think this is essential because, frankly, what 
Mr. Smith's legislation is doing so well is it is forcing State 
to do nothing other than what their charter already tells them 
they must do, but it is holding them responsible for doing it. 
And, at the same time, it is not a blanket punishment of the 
Bolivian people, such as a funding cut or something that would 
be a humanitarian issue. This is making the people who are 
responsible for this, responsible for their actions.
    So, I think that's important. And, frankly, I would very 
strongly advocate that there be a strong look at whether there 
needs to be a department within State that is tasked with 
following the plight of Americans overseas who are wrongly 
convicted, or who are wrongly held.
    Again, there needs to be some discretion so that you can 
say you know what, this is valid. But even a person who is 
caught with some drugs in their possession doesn't deserve to 
be in Palmasola. There needs to be some type of redress of 
conditions, and for the innocent there needs to be aggressive 
action in their behalf. And that is the one thing State is not 
doing.
    State is, in a macro sense, operating in the greater good 
of America, but they are willing to sacrifice individual 
Americans on the way to their goals. That is not okay.
    Ms. Buerkle. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman, and thank all the 
witnesses.
    While we're trying to bring some light on this matter here, 
what are the conditions in Bolivia? Is the free press seizing 
this? Is it a well known case? Is there any popular movement on 
the part of Bolivians to rectify this injustice if, indeed, 
they see it that way?
    Mr. Justiniano. If I may, Representative, the case is 
slowly becoming more public and reaching more publicity. And 
now, unfortunately, it is being spoken about in these terms 
which is it's the case of the gringo who's been arrested for 
nothing. Because it's quite clear that, in fact, there is no 
legal grounds for his detention.
    Mr. Turner. Mr. Montano, do you see it the same way? Do 
people see this as an injustice, or is there any newspaper or 
public figure involved?
    Mr. Montano. For the 7 months that I have been working with 
Jacob, what truly motivates me is that any person who 
approaches me, any person who has any contact with me asks me 
about Jacob. The media has started to approach me and they have 
started to look for me and to ask me about Jacob. I have 
embraced the media, and I have spoken as much as possible to 
talk about these injustices.
    Mr. Representative, yours truly is possibly the person who 
is closest to Jacob right now. He has suffered a loss of 
family, and I am the one who is always going to visit him in 
the jail, in the prison. And I will continue to see him and to 
follow through with this, and I will continue fighting for him 
even though, as Congressman Smith has already recognized, we 
are facing difficulties.
    However, I will always be able to go whether it's before 
your subcommittee or anywhere else I need to, to say that Jacob 
is innocent. Even if they want to prosecute or even persecute 
us, and if they say anything other than Jacob is innocent, we 
will continue to fight for his freedom.
    Upon our return to Bolivia, Mr. Jerjes and myself will be 
open to discussing exactly what we stated here. And something 
else, even those who are unofficially after Jacob have admitted 
that he's innocent. Thank you.
    Mr. Turner. I have another--Mr. Moore, you've been on this 
more than anyone. We had a question before on motive. It's both 
political and economic, but there is a large amount of 
inventory, equipment, and money that is not only missing, will 
probably never be recovered. Could you tell us a bit?
    Mr. Moore. Yes, Mr. Turner. It is true that the land, the 
crop, millions of dollars of combines, harvesters, I mean, very 
high ticket equipment is simply missing. It's gone. And after 
confiscating tens of millions of pounds of bagged high-quality 
rice, the Bolivian Government claims, number one, not to know 
where the rice went. And, at the same time, declared a rice 
surplus in the country for the first time in years.
    Evo Morales is almost obsessively attempting to embarrass 
capitalism as a concept in kind of a retro Castro-esque type of 
political agenda. He has recently announced that he will throw 
Coca-Cola out of the country, and is proud that only two other 
countries have ever thrown Coca-Cola out of their country, and 
that's North Korea and Cuba. He ran an airline--ran the state 
airline, Aerosur, out of business because it was a capitalist-
based company, and their president, by the way, is now in 
hiding, I believe in Spain. I'm not going to give his address 
but he's in Spain, and he has been charged with the exact same 
charges as Jacob.
    Evo Morales despises capitalism, is trying to make a stand 
against capitalism. The government is corrupt, they are 
stealing and then trying to stamp out the capitalist system. 
And, frankly, Jacob's business endeavor was so successful that 
it would have completely laid the lie to Evo Morales' 
particular brand of socialism.
    Mr. Turner. I have one quick final question. What is the 
title of your book, and can I get it down on Kindle?
    Mr. Moore. Yes, sir, thank you. It is called, ``Special 
Agent Man.''It's kind of tongue in cheek.
    Mr. Turner. Okay.
    Mr. Moore. And it is available on Kindle, and I'll even 
sign your Kindle.
    Mr. Turner. Thank you. I yield back.
    Mr. Moore. Thank you, sir.
    Mr. Smith. Thank you very much. Let me ask the two 
distinguished attorneys, one thing I learned from the trip from 
you was that the presumption of innocence is guaranteed both in 
the criminal procedure code, as well as in the Constitution; 
and, yet, early on in Jacob's case he was presumed in papers 
that were lodged to be guilty until proven innocent.
    Could you expand upon that? Is that frequently done, or was 
that an aberration?
    Mr. Justiniano. It seems that when the prosecutor filed the 
case, by filing a complaint against Jacob, the statement was 
that he had not proven that his finances were legal.
    Later, the judge for the case stated that that particular 
crime did not have the presumption of innocence as other crimes 
did. He alleged that this particular crime did not fall under 
that category, and that is completely false according to the 
Constitution, and according to the Code of Criminal Procedure.
    It is out of the ordinary for a judge to say something like 
that, especially when addressing the crime, or rather the 
alleged crime of money laundering, as Jacob is being accused. 
That's why we affirm without a doubt that he is being illegally 
detained and illegally prosecuted.
    Mr. Montano. Mr. Chair, I took on the task of looking over 
other similar cases to see if, in fact, I could find a similar 
judgment. And believe me when I tell you that I found none 
because this is illegal, and the victim of this illegality is 
your citizen. Thank you.
    Mr. Smith. So, when the U.N. human rights representative 
says, as you all have noted in your testimonies, that this is 
common to Bolivians, as well, this mistreatment, that is false, 
at least as it pertains to a presumption of innocence standard?
    Mr. Justiniano. The situation in Bolivia, unfortunately, it 
is common that there are violations of human rights. However, 
Mr. Chairman, you have seen the Palmasola Prison. That is a 
true violation of human rights. And although it is true that a 
prison should not be the best place for a person to be, it 
should also not be the worst place in the world.
    In Mr. Ostreicher's case, if we can say that there are 
rational levels of the violation of human rights, these levels 
have been exceeded and he has had his human rights violated 
even more.
    Mr. Montano. Mr. Chair, it is common in Bolivia and it has 
happened with the human rights representative who has not had 
the guts to be able to face the music and talk the truth. And 
why should that which is commonplace go above and beyond what 
the law is? That is not something that an international 
organization should accept.
    I am sure that the person who wrote that report has this 
lying heavily on his conscience if he himself is still free. 
Thank you.
    Mr. Smith. When I yielded to Ann Marie Buerkle you had not, 
Mr. Moore, had an opportunity to speak to the egregious 
inaction, and the fact that, if you'd like to, or Miriam, or 
Ms. Weinberger, to this apparent inability on the part of the 
President of the United States to pick up the phone and make 
that call. It is about equities, and very often human rights 
are at the back of the bus, especially with this 
administration.
    I was late coming to this hearing because I had a meeting 
with a man named Chen Guangcheng, and he is the blind activist 
Chinese lawyer that on two occasions, I've been working on his 
case since 2005, the U.S. Department of State was going to give 
him back to the Chinese until he himself said, ``Wait a minute. 
I need to leave here. My family and I are not safe here.'' And 
twice here we reached him in his hospital in Beijing and he 
made an impassioned plea to come to the United States. I 
believe that was a game changer, his plea to a Congressional 
hearing.
    This administration and others that preceded it don't take 
human rights seriously. It's a talking point. It's an asterisk 
somewhere. I wrote the Trafficking Victims Protection Act of 
2000, and I can tell you we had serious opposition to it from 
the Clinton administration, serious. Thankfully, it was a 
bipartisan bill and it got passed, and we had veto override 
strength, huge, that was huge.
    I don't understand why this President, a Nobel Peace Prize 
winner, can't protect or won't protect Americans unjustly 
incarcerated, and it goes the same for Secretary of State 
Hillary Clinton.
    Every single day, as has been so amply demonstrated by your 
testimonies and by the evidence from Jacob himself, his health 
is deteriorating. As Yimy said, he is a dying man. How could we 
stand idly by and go campaigning somewhere, important as this 
is with an election around the corner, when a man is in such 
peril?
    So, I again would ask you, I mean, egregious inaction is a 
very serious charge, and as you very diplomatically put it, the 
administration has other interests, but aren't American lives 
preeminent? Aren't they priority number one? Human rights, in 
general, ought to be priority number one. Here we're talking 
about an American.
    And I would say before you answer, too, to my friends from 
Bolivia, I had the privilege while I was in both Santa Cruz and 
La Paz to meet with the prosecutors that are working on anti-
human trafficking, both sex trafficking and labor trafficking 
issues. They were wonderful prosecutors. I mean, people who 
want to put people who sell and reduce women, especially, to 
commodities, behind bars, and confiscate their assets, and 
provide assistance to the victims.
    They, too, some of them indicated that they feared being 
prosecuted by rogue government people who don't like if they go 
across a certain line. But I was deeply impressed, they gave me 
great hope. And I think that all of us think that Bolivia has a 
great future because there are people like the two lawyers that 
are here today, and people the likes of which I met.
    I also pointed out, and I take your point, Yimy, to heart 
when you said that you're embracing the media. I had a press 
conference with the Bolivian media at U.S. Embassy La Paz and 
found them to be very responsive and empathetic, maybe not all 
but very many. I pointed out to them that I had been to two 
shelters where Bolivian girls, some as young as 12, 13, and 14 
who had been sold into modern day slavery, sex trafficking. 
They had been abused, are now being helped by the government 
and by the nuns that run one of those shelters, that my law 
actually was being used to help them. Some of the money came 
from the U.S. Government, because we care about Bolivians too.
    You know, Bolivia deserves better than rogue prosecutors 
that are trying to intimidate as they are in the case of Jacob, 
and all these judges, a passing parade of judges who have to 
recuse themselves. But, Mr. Moore, if you could speak to that. 
And, again, I do think the more the Bolivian media learns about 
this unjust incarceration it ought to provide a pathway for 
reform for everyone, including Bolivians. No one should be 
mistreated like this. Everyone is entitled to universally 
recognized human rights. And your presence here, again, brave 
and courageous as it is, speaks volumes of the respect that I 
and others have for Bolivia. You are Bolivia. You care for the 
rule of law, and I would hope that the government would sit up 
and take notice and follow your lead.
    Mr. Moore. I worked on the Amanda Knox case in Italy, and 
what I repeatedly said is that every country in the world will 
make a mistake judicially. It is not the judge--it is not the 
measure of a nation whether they will make a judicial mistake. 
It is the measure of a country, what they will do about it.
    I think Bolivia is a country that has a strong desire to do 
the right thing. It's just that their government does not. I 
found out recently that my mother-in-law and one of my wife's 
aunts go to Bolivia every year and work in a medical clinic 
there to provide free medical care for people who can't afford 
it, some in the city of Santa Cruz near Jacob. I didn't know 
this until after I had testified. Their question was can they 
still go, or have I ruined their ability to go?
    As far as the State Department's overarching 
responsibilities for American foreign policy as opposed to 
individual innocent Americans in prison, I can't help but go 
back to the analogy of primitive society who every year before 
planting and before harvest would sacrifice--would make a human 
sacrifice so that it would benefit the rest. We now see that as 
barbarianism.
    If we are still sacrificing individual Americans by 
allowing them to languish in prison so that our foreign policy 
advances, so that we can get bases in appropriate countries, so 
that we can try to reestablish relationships with countries, 
then are we not somewhat barbaric?
    There is, and I understand this. I empathize with the State 
Department's dilemma. They are responsible for overarching 
responsibility for our foreign policy, but I remember the 
argument after 9/11 when people who disagreed with the Patriot 
Act said are we giving up everything we're trying to achieve if 
we go over the line in giving up personal freedoms? And I had 
to answer those questions a lot.
    I would put it to the State Department that if we allow 
Americans to languish in prisons, innocent Americans to 
languish in prison, aren't we giving away just the thing we're 
trying to gain? I think something has to be done. Hopefully, 
this legislation will be the first strong step in that 
direction which will force the State Department, and the good 
people in the State Department, I don't dislike them, to 
seriously consider that one American is an American. One 
American is America. You can't just say that for these people 
we'll sacrifice him. That's barbaric.
    Mr. Smith. Miriam.
    Ms. Ungar. Thank you. Firstly, I would tip my hat to you 
for this. I would like to thank you for Jacob's Law. I want to 
thank you for Jacob's Law. It's the first two good words I've 
heard in 15 months. I would like to give you an applause from 
my whole family for that. You were the first person to actually 
be proactive in this case, and I don't know how to thank you 
for that, really. It means a lot to me to have you in our 
corner. And I also want to thank the two lawyers for their 
bravery, and their bravery should be commended. Thank you.
    Mr. Smith. Just a couple of questions and then we'll 
conclude. Mr. Turner, do you have anything you want to add? 
Whoever would want to answer this, one of the questions I asked 
Minister of Government Romero was ``What do you do when there's 
a rogue prosecutor or rogue prosecutors who may themselves be 
benefitting from money, a shakedown?'' I think that, Mr. Moore, 
you talked about it being a shakedown, even our Embassy people 
have talked about this being a shakedown. Who tracks Jacob's 
assets?
    Mr. Moore. Extortion.
    Mr. Smith. Extortion, better word. And then the next 
question--if you could speak to that issue first. And, I 
thought of it, one of the questions I asked the Minister of 
Justice was ``Where's the accounting for all of the stolen 
property?'' I mean, first, second, third, fourth, and fifth is 
get Jacob back, but it is a concern that a huge theft has 
occurred. And I was told that there are very serious 
accountings of where that is. Is it there, I mean, or is it in 
somebody's pocket? Rogue prosecutors, especially, that's a 
concern.
    Mr. Justiniano. Yes, thank you. One of the rights that has 
been affected, that has been violated of Mr. Ostreicher, in 
fact, does have to do with his patrimony. We speak about the 
right to his freedom, and to his health, but it is, in fact, 
the right to his patrimony and belongings. And one of the 
ironies of the case is that one of the prosecutors has, in 
fact, been named to the Ministry of Justice. It's worse than 
that, that his patrimony is in the hands of the Ministry of the 
Government.
    And since it is the Ministry of Government which is 
responsible for the property, for his machinery, for the rice 
itself, it has been practically stolen from him, and it is in 
the hands of the Ministry of Government.
    Curiously enough, the Ministry of Government is not named 
in this trial, this prosecution in which the rice has been 
stolen even when the party responsible for that rice is the 
Ministry of Government itself.
    Unfortunately, somebody will have to answer for this, for 
the machinery, the land, and particularly the investment that 
Mr. Ostreicher has made in Bolivia. I think practically it 
might one or two prosecutors who would be asked to respond to 
these damages, but really it's the Bolivian State.
    Mr. Smith. One final question, and it's more of a technical 
question. When did the clock begin on the 18 months? There was 
some disagreement. Is there disagreement? I mean, does this go 
until December or when does it go to, please?
    Mr. Justiniano. As you say, this is actually a difficult 
question to ask. It's a very tricky procedural and technical 
legal question. But what has to happen is we have to make a 
distinction between the initiation of the criminal prosecution 
and the investigation part of the prosecution.
    This prosecution was initiated on December 28, 2010. 
However, the investigative phase of the prosecution began on 
May 4, 2011. Therefore, the 18 months allowed would expire in 
November 2012. However, to date from when he was formally 
arrested, Mr. Jacob Ostreicher on June 3, 2011, almost 14 
months have gone by from that date.
    Mr. Smith. Mr. Moore, I understand you have to catch a 
plane. Thank you.
    Mr. Moore. Yes, sir. Thank you.
    Mr. Smith. Thank you for coming. We do appreciate it.
    Mr. Moore. Thank you.
    Mr. Smith. And thank you for, again, breaking off your 
schedule to come here at this hearing.
    Since I've returned I have spoken about Jacob to many of my 
colleagues on both sides of the aisle, and there is an 
interest, a growing interest among Members of Congress to 
travel to Bolivia to speak out on behalf of Jacob's freedom. 
Does that help?
    Mr. Justiniano. One of Mr. Moore's arguments was 
specifically that, that he had never before seen such a lack of 
activity on the part of the Secretary of State.
    In the 14 months that Jacob Ostreicher has been detained in 
pretrial detention, we have only seen the concern demonstrated 
by yourself and this subcommittee. However, we do believe that 
any action, any intervention whatsoever from people of your 
level would benefit Mr. Ostreicher's case.
    Mr. Smith. Thank you. I would just note for the record that 
when any of us in government speak out on behalf of an innocent 
man and promote human rights, we have a duty to protect, a 
moral duty. We're not doing Jacob a favor by intervening, we're 
doing what is right and honorable. And, again, I can't say 
enough how much I respect all of you, but to our two 
distinguished counselors who have come here, you are the future 
of Bolivia. And I want you to know on behalf of my colleagues 
in the U.S. Congress how much respect we have for you. And that 
we stand in solidarity with the Bolivian people who deserve 
better themselves. They deserve freedom and democracy, and a 
due process and respect for the rule of law that you represent. 
And I just want you to know how extraordinarily respectful I am 
of your efforts and who you are. So, thank you so very much.
    And to Miriam and to Ms. Weinberger, thank you again. Your 
love is what's driving this, and your concern for your husband, 
and for your father. If you have anything you would like to say 
as I close the hearing, you're welcome to do it.
    Well, thank you, and we will accelerate our efforts. We 
hope tomorrow to introduce Jacob's Law. We will start building 
the cosponsors for it and look for a markup of the legislation. 
And I can assure you, I can absolutely assure you from my point 
of view, and on behalf of many of my colleagues, we will not 
quit until Jacob is free.
    The hearing is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
